Hmteit States (Kauri of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted June 5, 2020
Decided June 23, 2020
Before
DIANE S. SYKES, Circuit Judge
AMY J. ST. EVE, Circuit Judge

No. 19-2732
BRADLEY DEARBORN,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Responden t-Appellee.

Appeal from the United States District
Court for the Central District of Illinois.
No. 18-1465
Michael M. Mihm,
Judge.
ORDER

Bradley Dearborn has filed a notice of appeal from the denial of his motion
under 28 U.S.C. § 2255, which we construe as an application for a certificate of
appealability This court has reviewed the final order of the district court and the record
on appeal. We find no substantial showing of the denial of a constitutional right. See
28 U.S.C. § 2253(c)(2).
Accordingly, the request for a certificate of appealability is DENIED. Dearborn's
motion to proceed in forma pauperis is DENIED.

l:18-cv-01465-MMM # 15

Page 1 of 12

E-FILED

Wednesday, 17 July, 2019 01:04:46 PM
Clerk, U.S. District Court, ILCD

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
PEORIA DIVISION
BRADLEY D. DEARBORN,
Petitioner,
v.

Case No. 18-cv-1465
Criminal Case No. 12-cr-10017

UNITED STATES OF AMERICA,
Respondent.

MEMORANDUM OPINION AND ORDER
This matter is before the Court on Petitioner’s Motion to Vacate, Set Aside or Correct
Sentence under 28 U.S.C. § 2255 (D. 1'), Motion for Leave to Conduct Discovery (D. 3), and
Motion for Summary Judgment (D. 11). For the reasons stated below, Petitioner’s Motions are
DENIED.
BACKGROUND
In 2011, the Macomb Police Department and McDonough County Sheriffs Department
began investigating suspected sales of illegal narcotics by Petitioner at an apartment on West
Calhoun Street in Macomb, Illinois. On November 17, 2011, and December 13, 2011, officers
carried out two controlled buys from Petitioner at the apartment. On December 19, 2011, officers
executed a search warrant (Cr. D. 18-1 at 42) upon Petitioner and the property, seizing sixty grams
of crack cocaine and $360 in marked bills. During the search, officers apprehended Petitioner,
who admitted to being involved in criminal narcotics activity. (Cr. D. 1 at 5). On January 3, 2012,
a warrant for Petitioner’s arrest was executed. (Cr. D. 9).

1 Citations to the docket in this case are abbreviated “D.__.”
2 Citations to the underlying criminal case docket, 12-cr-10017, are abbreviated “Cr. D.__.”

l:18-cv-01465-MMM # 15

Page 2 of 12

PROCEDURAL HISTORY
On January 19, 2012, Petitioner was indicted on four counts: conspiracy to distribute crack
cocaine in violation of 21 U.S.C. § 841(a)(1), possession of cocaine base with intent to distribute
in violation of 21 U.S.C. § 841(b)(1)(A), and two counts of distribution of cocaine base in violation
of 21 U.S.C. § 841(b)(1)(C). (D. 4). Petitioner entered a plea of not guilty and was appointed
counsel. Prior to trial, Petitioner moved to quash the search warrant, arguing that the confidential
informants were not sufficiently reliable to establish probable cause. (Cr. D. 18 at 3-4). Petitioner
also requested an evidentiary hearing under Franks v. Delaware, 438 U.S. 154 (1978), to determine
whether the affiant made intentional or recklessly misleading omissions that would jeopardize the
probable cause finding. (Cr. D. 18 at 4).
On September 23, 2013, the Court denied Petitioner’s motion to suppress and his request
for a Franks hearing, finding that the controlled buys described in the complaint for the search
warrant adequately supported the informants’ reliability. (Cr. D. 67 at 22-23). After the motion
to suppress was denied, Petitioner changed his plea to guilty but reserved his right to appeal the
denial of his motion. (Cr. D. 41). The prosecution dismissed the counts for conspiracy and
possession with intent to distribute, and the Court sentenced Petitioner to 172 months in prison
followed by six years of supervised release. (Cr. D. 49).
After his conviction, Petitioner urged his appellate attorney to appeal the denial of his
motion to suppress. After researching the issue and discussing it with Petitioner, counsel advised
him that it was her professional duty not to bring a claim that she and the Court would consider
frivolous: (D. 9-3, 9-4, 9-5). Instead, she challenged the conditions of Petitioner’s supervised
release in light of the Seventh Circuit’s findings in United States v. Thompson, 111 F.3d 368
(7th Cir. 2015). The prosecution agreed with her challenge, and the Court of Appeals granted the

2

1:18-CV-01465-MM M # 15

Page 3 of 12

remand for resentencing, but Petitioner did not appeal any other issues. United States v. Dearborn,
No. 14-3032, 2015 U.S. App. LEXIS 23316 (7th Cir. Feb. 24, 2015).
Petitioner then appealed his resentencing, insisting that the Court should have granted his
prior request for a Franks hearing. (Cr. D. 143-1). The Seventh Circuit rejected this argument,
ruling that: (i) Petitioner failed to request a Franks hearing during resentencing; (ii) Petitioner
waived the issue by not raising it during his first appeal; (iii) Petitioner’s appeal challenged his
guilt, not his sentencing; and (iv) Petitioner’s request was outside the scope of the district court’s
mandate at resentencing. (Cr. D. 143-1 at 5). The Court of Appeals further ruled that even if
Petitioner had requested a Franks hearing, he failed to demonstrate that such a hearing was
necessary. (Cr. D. 143-1 at 6).
On December 31, 2018, Petitioner filed the instant Motion under 28 U.S.C. § 2255 (D. 1),
alleging four grounds of ineffective assistance of counsel, and a Motion for Leave to Conduct
Discovery (D. 3). On March 7, 2019, the Government filed its Response (D. 9), and on March 28,
2019, Petitioner filed his Reply (D. 10). Simultaneously, Petitioner filed a Motion for Summary
Judgment (D. 11) and an affidavit in support of his § 2255 Motion (D. 12). On April 17,2019, the
Government filed its Response to Petitioner’s Motions for Discovery and for Summary Judgment
(D. 13), and on May 10, 2019, Petitioner filed his Reply (D. 14). This Order follows.
LEGAL STANDARD
Motion to Vacate, Set Aside, or Correct Sentence
A prisoner may file a § 2255 motion if his sentence “was imposed in violation of the
Constitution or laws of the United States.” 28 U.S.C. § 2255(a) (2008). Ordinarily, a movant may
not raise issues he waived on direct appeal unless there has been a change of circumstances in fact
or law. Olmstead v. United States, 55 F.3d 316, 319-20 (7th Cir. 1995). Ineffective assistance

3

l:18-cv-01465-MMM # 15

Page 4 of 12

claims are not subject to this procedural default. Massaro v. United States, 538 U.S. 500, 503-04
(2003).
A motion under 28 U.S.C. § 2255 “is confined to correcting errors that vitiate the
sentencing court’s jurisdiction or are otherwise of constitutional magnitude.” Guinan v. United
States, 6 F.3d 468, 470 (7th Cir. 1993) (internal citation omitted), abrogated on other grounds by
Massaro, 538 U.S. 500. As such, it cannot act as a substitute for direct appeal. Varela v. United
States, 481 F.3d 932, 935 (7th Cir. 2007). It is an “extraordinary remedy,” Almonacid v. United
States, 476 F.3d 518, 521 (7th Cir. 2007), available “only in extraordinary situations,” Blake v.
United States, 723 F.3d 870, 878-79 (7th Cir. 2013). In evaluating a § 2255 motion, “[t]he district
court must review the record and draw all reasonable inferences in favor of the government.”
Messinger v. United States, 872 F.2d 217, 219 (7th Cir. 1989). When an order is issued on the
record, an evidentiary hearing is not required. Hutchings v. United States, 618 F.3d 693, 699-700
(7th Cir. 2010).
Ineffective Assistance of Counsel
To demonstrate ineffective assistance of counsel, Petitioner must show (i) deficient
performance by counsel, and (ii) prejudice because of the deficient performance. Strickland v.
Washington, 466 U.S. 668, 687-91 (1984). Deficient performance is representation that “[falls]
below an objective standard of reasonableness.” Id. at 688. There is a strong presumption that
counsel’s performance falls within the range of reasonable professional assistance. Id. at 694.
Prejudice occurs when there is a reasonable probability that, but for counsel’s deficient conduct,
the outcome of the proceeding would have been different.

Id. at 695.

Together, the two

requirements under Strickland pose a high bar and a heavy burden for the petitioner to overcome,
made only higher by the extraordinary nature of § 2255 remedies.

4

Harrington v. Richter,

1; 18-CV-01465-MM M # 15

Page 5 of 12

562 U.S. 86, 105 (2011). Failure to show either deficient performance or prejudice on a claim of
ineffective assistance of counsel will result in its denial. Ebbole v. United States, 8 F.3d 530, 533
(7th Cir. 1993). Where expedient, this Court may dismiss a claim based solely on one prong of
the test. Strickland, 466 U.S. at 697.
DISCUSSION
Petitioner’s Motion to Vacate, Correct, or Set Aside Sentence
Petitioner asserts four grounds for relief under the umbrella of ineffective assistance of
counsel: (i) failure to present evidence at his suppression hearing; (ii) failure to challenge his career
offender status; (iii) failure to appeal the denial of his motion to suppress; and (iv) failure to
challenge his sentencing enhancement. (D. 2).
I.

Failure to Present Evidence at Suppression Hearing

Petitioner alleges that counsel failed to investigate and produce at least five pieces of
material evidence at his suppression hearing. (D. 2 at 7-14). For his claim to proceed, Petitioner
must demonstrate a reasonable probability that introducing the evidence would have influenced
the outcome of the suppression proceedings. Strickland, 466 U.S. at 690. Here, three pieces of
evidence Petitioner contends were improperly omitted were statements given at his sentencing
hearing — almost a year after his suppression hearing. (Cr. D. 40, 69, 70). The fourth piece of
evidence was a state court ruling on the credibility of the investigating officer who petitioned the
state circuit court for the December 19, 2011, search warrant. The state court ruling involved an
unrelated matter and was not issued until December 4, 2015. (D. 2-1 at 20). None of the four
pieces of evidence existed at the time of hearing on Petitioner’s motion to suppress.

The

Government argues, and the Court agrees, that “[bjarring precognitive ability, [counsel] would not

5

1:18-CV-01465-MM M # 15

Page 6 of 12

have been able to challenge” this non-existent evidence. (D. 9 at 13). The Court finds that counsel
was not ineffective for failing to produce evidence that did not yet exist.
Petitioner next argues that counsel should have challenged his arrest warrant because the
confidential informants to whom he sold crack as part of the controlled buys were on parole.
(D. 2 at 11). The Court addressed this argument in its previous ruling on Petitioner’s motion to
suppress, finding that a parolee is the type of person law enforcement “typically deal[s] with as a
[confidential source].” (D. 67 at 22). The Court found them credible because both made controlled
buys. Id. at 23. In short, the issue of the informants’ parole status was irrelevant because the Court
found probable cause for Petitioner’s arrest on other suitable grounds. As such, there is not a
reasonable probability that challenging the informants’ parole status would have altered the
outcome of the proceeding.
Even if there were prejudice, the record suggests that counsel advocated for Petitioner at a
level above which is objectively reasonable. For example, counsel attempted to contact the
informants’ parole agent. (D. 9-2 at 3). Counsel also argued that payments to the informants, their
prior drug convictions, their preferential treatment for cooperation, the poor quality of the audio
recording of the controlled buy, and the suggestibility of the photo lineup were omissions that
justified suppressing evidence. (Cr. D. 18 at 5). Finally, counsel protested that the prosecution
had not provided the state court with the informants’ criminal history when it applied for the search
warrant. (Id. at 2). The Court finds that counsel’s performance did not fall below an objective
standard of reasonableness.
II.

Failure to Challenge Career Offender Designation

Petitioner next alleges ineffective assistance of counsel for failure to challenge his prior
offenses at sentencing and resentencing. (D. 1 at 7-8). For his claim to succeed, Petitioner must

6

l:18-cv-01465-MMM # 15

Page 7 of 12

demonstrate a reasonable probability that if counsel had challenged his status as a career offender,
the result of his sentencing proceedings would have been different. Counsel’s judgment is made
more reasonable to the extent that it is “substantially influenced by the defendant’s own statements
or actions.” United States v. Olson, 846 F.2d 1103, 1109 (7th Cir. 1988). Prior to sentencing, the
Court repeatedly made clear to Petitioner that his status as a career offender was not being
challenged, and Petitioner, without objection, acknowledged multiple times that he understood and
agreed not to challenge the designation. (Cr. D. 70 at 135-142). Petitioner does not raise any
evidence that would warrant raising such an objection now. (Cr. D. 68 at 3). The two Cook County
felonies cited in the Presentence Investigation Report - No. 95C66053501 (attempted first degree
murder plus aggravated discharge of a firearm) and No. 05C66124501 (manufacture or delivery
of a controlled substance) - are not contradicted. (Cr. D. 38 at 7-10). Without any evidence to
challenge his prior convictions, Petitioner has not shown a reasonable probability that challenging
his prior offenses would have affected the outcome of the hearing. His statements and actions at
trial affirming his criminal history support counsel’s decision not to challenge these offenses. See
Olson, 846 F.2d 1103. Accordingly, the Court finds Petitioner has failed to prove that counsel’s
performance was either unreasonable or prejudicial.
Similarly, Petitioner argues that if counsel had challenged an offense in the Revised
Presentence Investigation Report at his resentencing, his sentence would not have been enhanced
pursuant to § 4B1.1 of the United States Sentencing Guidelines. (D. 2 at 27). The Court had
already found Petitioner to be a career offender at his initial sentencing proceedings, where, as
noted, Petitioner repeatedly acknowledged his guilt for prior qualifying offenses. (Cr. D. 70 at
96). Before resentencing, the Court advised Petitioner that objections resolved at the initial
sentencing hearing—such as those regarding his career offender designation—would not be

7

l:18-cv-01465-MMM # 15

Page 8 of 12

revisited. (Cr. D. 136 at 8). On three separate occasions during a status hearing held before
resentencing, the Court invited Petitioner to raise new objections if he believed new evidence
would warrant it, and each time Petitioner chose not to do so. Id. at 11, 12, 13. As counsel puts
it, choosing not to challenge the prior convictions without new evidence “was simply following
the Court’s ruling” that issues already resolved at sentencing would not be relitigated during
resentencing. (D. 9-1 at 2). Petitioner’s own statements affirming his criminal history multiple
times in open court again support counsel’s decision not to challenge his career offender
designation. The Court finds that renewing a challenge to Petitioner’s career offender designation
at resentencing would not have affected the outcome of the proceedings, and counsel’s refraining
from doing so does not fall below an objective standard of reasonableness.
III.

Failure to Appeal Denial of Motion to Suppress

Petitioner requested that his attorney appeal the denial of his motion to suppress. She did
not, presumptively waiving that issue on appeal. Petitioner alleges that counsel’s choice to waive
his right to appeal is grounds for ineffective assistance of counsel. (D. 1 at 5). To succeed on this
claim, Petitioner must overcome “the presumption that, under the circumstances, the challenged
action ‘might be considered sound trial strategy.’” Strickland, 466 U.S. at 689 (internal citation
omitted). The Court finds that counsel undertook diligent measures to assess the merits of the
proposed appeal: She discussed it with Petitioner’s trial attorney, researched the relevant law, and
discussed it again with another Criminal Justice Act (CJA) panel attorney. Ultimately, she
reasoned that two controlled buys, officer observations, photo identification, and an audio
recording of a controlled buy were more than enough to support the circuit court’s finding of
probable cause. She informed Petitioner that his challenge was without merit and cited a duty not
to raise frivolous issues on appeal. (D. 9-3, 9-4, 9-5). Counsel also pointed out that even if

8

l:18-cv-01465-MMM # 15

Page 9 of 12

Petitioner won the motion to suppress, he could lose his plea deal on remand and there would be
substantial evidence to convict him at trial. (D. 9-4, 9-5 at 2). The Court also finds that counsel’s
decision not to appeal the denial of the motion to suppress was reasonable in light of the
unlikelihood of success on the merits and the potentially disastrous results for her client on remand.
Her choice was part of a valid legal strategy well within the ambit of an objective standard of
reasonableness. There is no apparent probability that appealing the motion to suppress would have
altered the outcome of the proceedings in Petitioner’s favor.
IV.

Failure to Cite Joint Sentencing Provisions at Resentencing

Petitioner also alleges ineffective assistance of counsel for failure to invoke Amendment
790 to §1B1.3(a)(1)(B) of the United States Sentencing Guidelines. (D. 2 at 28). Amendment 790
made certain revisions to the sentencing guidelines applicable “to clarify the use of relevant
conduct in offenses involving multiple participants.”

U.S. SENTENCING GUIDELINES

MANUAL § 1B1.3(a)(1)(B) (2018). Amendment 790 became effective in 2015, after Petitioner’s
initial sentencing hearing in 2014. Because it would not have been possible to raise the joint
conduct challenge at his initial sentencing, failing to do so did not waive the right to raise it at
resentencing. The Court found Petitioner individually responsible for transporting 315 grams of
cocaine from Chicago to Macomb. (Cr. D. 144 at 41). Therefore, a subsection of the U.S.
Sentencing Guidelines that deals with joint criminal activity is irrelevant. The crimes of conviction
involve Petitioner’s conduct alone, not joint conduct. The Court finds that counsel’s performance
was not unreasonable in failing to press an issue of law which counsel knew had no relevance to
his client’s case. (D. 9-1 at 2).

9

1:18-CV-01465-MM M # 15

Page 10 of 12

Petitioner’s Motion for Leave to Conduct Discovery
Rules 6(a) and 6(b) of the Rules Governing Section 2255 Proceedings, require leave of the
court to conduct discovery. Under the Rules, the moving party “must provide reasons” for
discovery, and the judge must find “good cause.” Good cause cannot exist where the facts alleged
by the moving party do not provide a basis for relief. Matta-Ballesteros v. Henman, 896 F.2d 255,
259 (7th Cir. 1990).
In his Motion for Leave to Conduct Discovery, Petitioner requests documents authorizing
the informant to conduct a controlled buy. (D. 3). Petitioner argues that probable cause was
lacking from the search warrant because the confidential informants did not have permission from
Probation to conduct the controlled buys. (D. 2 at 10-12, 22). The Court, however, ruled that the
controlled buys, and other indicia of reliability, were enough to support the probable cause finding
independent of the parole status of the informants. See supra, pp. 5-7. The facts alleged by
Petitioner, even if proven through discovery, provide no basis for relief. The Court therefore finds
no good cause for discovery on the issue of permission from Probation to carry out a buy.
Petitioner also requests a copy of the indictment in his criminal case. (D. 3.) Petitioner
had access to all pleadings and documents during the pendency of his case. If Petitioner wants a
copy of the indictment now, he may seek it from former defense counsel. Petitioner fails to state
why the Government should be compelled to produce a document that is equally within his power
to obtain. The instant Motion is DENIED.
Petitioner’s Motion for Summary Judgment
Responses to Petitioner’s Motion for Leave to Conduct Discovery were due on January 14,
2019. (D. 3). The Government did not file its response until April 17, 2019, over three months
after the deadline. (D. 13). The Federal Rules of Civil Procedure may apply to § 2255 motions

10

1:18-CV-01465- M M M # 15

Page 11 of 12

through Rule 12 of the Rules Governing Section 2255 Proceedings. Petitioner, citing Rules 8(b)(6)
and 56(c) of the Federal Rules of Civil Procedure, now moves for summary judgment to enforce
his discovery request. Petitioner’s Motion for Leave to Conduct Discovery has already been
denied for lack of good cause. There is no legal claim for which the Court can grant summary
judgment under 56(c). Petitioner also contends that under Rule 8(b)(6), the Government’s failure
to file a timely reply means it has agreed to provide the requested documents. (D. 11 at 2). To
“admit” for the purposes of Rule 8, however, means only to stipulate that an allegation made by
the pleading party is accurate. It does not mean that the Government agrees to comply with the
discovery motion. See Fed. R. Civ. P. 8(b). Accordingly, Petitioner’s Motion for Summary
Judgment is DENIED.
Denial of Certificate of Appealability
Under Rule 11(a) of the Rules Governing § 2255 Proceedings, the Court “must issue or
deny a certificate of appealability when it enters a final order adverse to the applicant.” Petitioner
is only entitled to a certificate of appealability if he can make a substantial showing of the denial
of a constitutional right. Evans v. Circuit Court ofCook County, 569 F.3d 665,667 (7th Cir. 2009).
To meet this standard, Petitioner must demonstrate that a reasonable jurist would find the Court’s
assessment of his claims debatable or wrong. Slack v. McDaniel, 529 U.S. 473, 484 (2000). The
Court finds that Petitioner has not made a substantial showing that reasonable jurists would differ
in their assessment of the merits of his claim. His claims of ineffective assistance of counsel fail
to satisfy the deficient performance prong or the prejudice prong of the Strickland test. Because
Petitioner has not made a substantial showing of the denial of a constitutional right, the Court
declines to issue a certificate of appealability.

11

l:18-cv-01465-MMM # 15

Page 12 of 12

CONCLUSION
None of the arguments in Petitioner’s § 2255 motion pass the Strickland test. Counsels’
performance at each stage of the litigation fell comfortably within “the wide range of reasonable
professional assistance” required by law.

Trial counsel made appropriate investigations to

challenge the search warrant based on the information available to him at that time. Counsel
presented several reasonable arguments to discredit the informants in his motion to suppress.
Petitioner himself conceded that his criminal history as presented in the Presentence Investigation
Report was accurate, and counsel had no other grounds to challenge the prior convictions.
On appeal, Petitioner did not challenge the denial of the motion to suppress. Appellate
counsel made a reasonable professional judgment that doing so might have exposed Petitioner to
a more severe sentence. Because Petitioner brought no new evidence or argumentation to light
that would warrant further challenges to his criminal history, counsel’s decision at resentencing to
limit his arguments to other sentencing factors was reasonable.
For the reasons stated herein, Petitioner’s [1] Motion to Vacate, Set Aside, or Correct
Sentence under 28 U.S.C. § 2255, [3] Motion for Leave to Conduct Discovery, and [11] Motion
for Summary Judgment are DENIED. The Court declines to issue a certificate of appealability.
This matter is now TERMINATED.

Entered on July 17, 2019.

Is/ Michael M. Mihm
Michael M. Mihm
United States District Judge

12

l:18-cv-01465-MMM # 16

Page 1 of 1

Judgment in a Civil Case (02/11)

United States District Court
for the
Central District of Illinois
Bradley D. Dearborn
Petitioner,
vs.
United States of America
Respondent.

E-FILED

Wednesday, 17 July, 2019 02:28:08 PM
l V.UUI \.f 1PCD

)
)
)
)
)
)
)
)
)

Case Number: 18-1465

JUDGMENT IN A CIVIL CASE
K! DECISION BY THE COURT. This action came before the Court, and a decision has
been rendered.
IT IS ORDERED AND ADJUDGED that Petitioner’s Motion for Summary Judgment is
DENIED. The Court declines to issue a Certificate of Appealability.

Dated: July 17, 2019
s/ Shig Yasunaea______
Shig Yasunaga
Clerk, U.S. District Court

ELECTRONIC FILING SYSTEM - U.S. District Court ILCD-D...

https://ecf.ilcd.circ7.dcn/cgi-bin/DisplayReceipt.pl7661001554...

MIME-Version:1.0
From:ECF_Returns@ilcd.uscourts.gov
To:ECF_Notices
Bcc:
—Case Participants: Adam W Ghrist (adam.ghrist@usdoj.gov, allison.ramsdale@usdoj.gov,
caseview.ecf@usdoj.gov, margo.l.scamp@usdoj.gov), Darilynn J Knauss
(allison.ramsdale@usdoj.gov, caseview.ecf@usdoj.gov, margo.l.scamp@usdoj.gov), Judge
Michael M. Mihm (chambers.mihm@iicd.uscourts.gov)
—Non Case Participants: Clerk of Court, US Court of Appeals, SHORT RECORDS/ORDERS
(ca7_orders@ca7.uscourts.gov), PEORIA FINANCE (chad_clift@ilcd.uscourts.gov,
kelly_driscoll@ilcd.uscourts.gov, missy_frost@iled.uscourts.gov)
—No Notice Sent:
Message-Id:<3612859@ilcd.uscourts.gov>
Subject:Activity in Case 1:18-cv-01465-MMM Dearborn v. United States of America Order
on Motion for Leave to Appeal in forma pauperis

Content-Type: text/html
This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT
RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to receive one free
electronic copy of all documents filed electronically, if receipt is required by law or directed by the
filer. PACER access fees apply to all other users. To avoid later, charges, download a copy of each
document during this first viewing. However, if the referenced document is a transcript, the free
copy and 30 page limit do not apply.
U.S. District Court
CENTRAL DISTRICT OF ILLINOIS
Notice of Electronic Filing
The following transaction was entered on 9/24/2019 at 11:20 AM CDT and filed on 9/24/2019
Case Name:
Dearborn v. United States of America
Case Number:
l:18-cv-01465-MMM
Filer:
WARNING: CASE CLOSED on 07/17/2019
Document Number: No document attached
Docket Text:
TEXT ORDER: DENYING Petitioner's [22] Motion for Leave to Appeal in forma pauperis.
On December 31, 2018, Petitioner filed his ^2255 motion outlining numerous grounds
for sentencing relief. (ECF No. 2.) On July 17, 2019, this Court issued its Order denying
his motion and declining to issue a certificate of appealability. In its Order, the Court
found Petitioner failed to make "a substantial showing that reasonable jurists would
differ in their assessment of the merits of his claim," and that he failed to make "a
substantial showing of the denial of a constitutional right." (ECF No. 15 at 11.) On
September 9, 2019, Petitioner filed his Notice of Appeal. (ECF No. 17.) Rule 11 of the
Rules Governing Section 2255 Proceedings for the United States District Courts states,
in part, "If the court denies a certificate, a party may not appeal the denial but may seek
a certificate from the court of appeals under Federal Rule of Appellate Procedure 22."
1 nf9

ELECTRONIC FILING SYSTEM - U.S. District Court ILCD-D..

https://ecf.ilcd.circ7.dcn/cgi-bin/DisplayReceipt.pl7661001554...

Rule 24 of the Rules of Appellate Procedure states, "A party who was permitted to
proceed in forma pauperis in the district-court action,... may proceed on appeal in forma
pauperis without further authorization, unless... the district courtbefore or after the
notice of appeal is filedcertifies that the appeal is not taken in good faith or finds that
the party is not otherwise entitled to proceed in forma pauperis and states in writing its
reasons for the certification or finding!.]" Fed. R. App. P. 24(a)(3)(A). The Court finds the
claims in Petitioner's ^ 2255 motion were either barred from consideration, devoid of
factual support, or flatly contradicted by the law of this Circuit. It also finds his appeal
would be frivolous and not taken in good faith. As such, his [22] Motion is DENIED.
(JA,ilcd)
l:18-cv-01465-MMM Notice has been electronically mailed to:
Adam W Ghrist adam.ghrist@usdoj.gov, allison.ramsdale@usdoj.gov, CaseView.ECF@usdoj.gov,
margo.l.scamp@usdoj.gov
l:18-cv-01465-MMM Notice has been delivered by other means to:
Bradley D Dearborn
17821-026
MCDOWELL
Federal Correctional Center
PO Box 1009
Welch, WV 24801

2 of 2

m/unmn nionu

Mniteh States dour! of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
August 24, 2020
Before
DIANE'S. SYKES, Chief Judge
AMY J. ST. EVE, Circuit Judge

No. 19-2732
BRADLEY D. DEARBORN,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

Appeal from the United States District
Court for the Central District of Illinois.
No. 18-1465
Michael M. Mihm,

Judge.

ORDER
On consideration of the petition for rehearing and for rehearing en banc, no judge
in active service requested a vote on the petition for rehearing en banc, and both judges
on the original panel voted to deny rehearing. It is therefore ordered that the petition for
rehearing and for rehearing en banc is DENIED.

